r

;*■

Supreme Court, U.S.
FILED

* 4

OCT 0 2 2020
OFFICE OF THE CLERK

NO,
IN THE
SUPREME COURT OF THE UNITED STATES

Jeff Howell, Petitioner
vs.
State of Indiana, Respondent

ON PETITION FOR WRIT OF CERTIORARI TO
THE INDIANA SUPREME COURT

PETITION FOR WRIT OF CERTIORARI

Jeff Howell
P.O. Box 6093
Bloomington IN 47407-6093
Petitioner, pro se

S

\
I

I

1
■■4

*-• t\

i.

*

K-

1

QUESTIONS PRESENTED

1. Whether the lower courts erred by denying
Howell’s right to access of information on
jurors who deliberated at his trial
2. Whether the lower courts abused their
discretion by denying Howell’s right to access
of information on jurors who deliberated at his
trial
3. Whether Indiana Statute 33-28-5-22, Indiana
Administrative Rule 9 and 10 allow parties to
an action to have access to information on
jurors who deliberated at his trial, and
whether the requesting party is required to
state a specific reason for the request

i

PARTIES TO THE PROCEEDING
Petitioner is Jeff Howell, a resident of the United
States. Respondent is the State of Indiana.

DIRECTLY RELATED PROCEEDINGS
1. Jeff Howell v. State of Indiana, 19A-CR-02913
(Ind. 2020). Indiana Supreme Court’s denial of
Howell’s petition to transfer. Not published.
2. Jeff Howell v. State of Indiana, 19-CR-02913
(Ind. Ct. App. 2020). Opinion of the Indiana
Court of Appeals affirming lower court’s denial
of Howell’s motion. Not published.
3. State of Indiana v. Jeff Howell, 49G03-0807PC-158636 (Marion Superior Court 2008). Not
published.

ii

TABLE OF CONTENTS

QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDING

n

DIRECTLY RELATED PROCEEDINGS

11

TABLE OF CONTENTS

m

APPENDIX - CONTENTS

IV

TABLE OF AUTHORITIES

v

OPINIONS BELOW

1

STATEMENT OF JURISDICTION

1

STATUTORY AND CONSTITUTIONAL
AUTHORITY.............................................

1

STATEMENT OF THE CASE

4

REASONS FOR GRANTING
THE PETITION.....................

13

CONCLUSION.

13

m

APPENDIX - CONTENTS

Jeff Howell v. State of Indiana,
19A-CR-02913 (Ind. 2020). Indiana Supreme Court’s
denial of Howell’s Petition to Transfer
1A
Jeff Howell v. State of Indiana,
19-CR-02913 (Ind. Ct. App. 2020). Indiana Court of
Appeal’s dismissal of Howell’s appeal
3A
State of Indiana v. Jeff Howell, 49G03-0807-PC158636 (Marion Superior Court 2008). Howell’s
Motion for Release of Juror Information (denied)
5A
State of Indiana v. Jeff Howell, 49G03-0807-PC158636 (Marion Superior Court 2008). Howell’s
letter to the Marion County Clerk requesting
information on the jurors who presided at his trial
(denied).
15A

IV

TABLE OF AUTHORITIES
In Re Access to Juror Questionnaires; the
Washington Post (D.C. Circuit Court of Appeals,
(2012)
4
U.S. v. Barnes, 604 F.2d 121 (1979

4

Globe Newspaper Co. v. Superior Court, 457 U.S. 596
(1982)
5
Richmond Newspapers, Inc. v. Virginia,
448 U.S. 55 (1980)...................................
Press-Enterprise Co. v. Superior Court,
478 U.S. 1 (1986)...................................

5, 8
5,6,7,11,12

United States v. A.D., 28 F.3d 1353 (3rd Cir. 1994)
5
Westmoreland v. CBS, Inc.,
752 F.2d 16 (2d Cir. 1984)..

5

Publicker Industries, Inc. v. Cohen,
733 F.2d 1059 (3rd Cir. 1984).........

5

In re Continental Illinois Sec. Litig.,
732 F.2d 1310 (7th Cir. 1984)...........

5

Brown & Williamson Tobacco Co., Corp. v. FTC,
710 F.2d 1165 (6th Cir. 1983)
5
In re Baltimore Sun Co.,
841 F.2d 74, 75 (4* Cir. 1988)

v

7

1%

Gannett Co. v. State,
751 A.2d 735, 757 (Del. 1990)

8

United States v. Burr,
25 F. Cas 55, 87, No. 14,693
(C.C.D. Va. 1807)................

7,8

In re Globe Newspaper Co.,
920 F.2d 88 (1st Cir. 1990).

9

United States v. Doherty,
675 F. Supp. 719, 723 (D. Mass. 1987)

10

United States v. Posner,
144 F. Supp. 855, 886, n.2 (S.D. Fla. 1986).... 10
United States v. Wecht,
537 F.2d 222 (3* Cir. 2008)

11

State ex rel. Beacon Journal Publishing Co. v. Bond,
98 Ohio St.3d 146, 2002-0hio-7117
11, 12

Constitutional Provisions
U.S. Const. Amend. I

1,4,5,6,11,12

vi

Other Citations
David Weinstein, Protecting a Juror’s Right to
Privacy: Constitutional Constraints and Policy
Opinions, 70 Temp. L. Rev. 1,30 (1997)
8
Inside the Jury Room at the Washington Post Libel
Trail, Am. Law., Nov. 1982
10
Did Civic Duty Go Away?, Jeff Blumenthal, Legal
Intelligencer, Sept. 15, 1999
11

vii

OPINIONS BELOW
Jeff Howell v. State of Indiana, 19A-CR-02913 (Ind.
2020). Indiana Supreme Court denial of Howell’s
petition to transfer. Not published.
Jeff Howell v. State of Indiana, 19-CR-02913 (Ind.
Ct. App. 2020). Opinion of the Indiana Court of
Appeals affirming lower court’s denial of Howell’s
motion. Not published.
State of Indiana v. Jeff Howell, 49G03-0807-PC158636 (Marion Superior Court 2008). Howell’s
letter to the Marion County Clerk requesting
information on jurors who presided at his trial.
Denied.

STATEMENT OF JURISDICTION
This Court’s jurisdiction is drawn from 28 U.S.C. §
1257(a).

STATUTORY AND CONSTITUTIONAL
AUTHORITY
Both the First Amendment as well as Indiana
Statutes and Administrative Rules demand that court
information be made available to the pubhc as well as
to parties in a particular action.

1

Indiana Code 33-28-5-22, Indiana Administrative
Rule 9, and Indiana Jury Rule 10, all provide that a
party to an action is entitled to information about the
jurors who were involved in the case.
“After the period of service for which
names were drawn from the master jury
list has expired, and all persons selected
to serve as jurors have been discharged,
all records and papers compiled and
maintained by the jury administrator or
the clerk must be preserved by the clerk
of the courts for the period prescribed by
rule of the supreme court. The records
and papers must be available for public
inspection at all reasonable times and in
accordance with this chapter and
applicable supreme court rules.”
Emphasis added.
Indiana Code 33-28-5-22.
Although a specific period of time cannot be
determined, it is believed that it is safe to say that one
cannot deny that “the period of service for which
names were drawn from the master jury list” has
indeed expired for a trial that occurred in 2009. Id.
Next, the statute demands that the “records and
papers” must be available for public inspection. Id.

2

It should be noted that Indiana Code 33-28-5-22
demands that the information be available to the
public. This access is even more broad than allowing
the information to be available to parties.
“All persons have access to Court
Records as provided in this rule, except
as provided in section (B)(2) of this rule.”
Ind. Admin. R. 9(B).
“The following persons, in accordance
with their functions within the judicial
system, may have greater access to Court
Records:
(d) the parties to a case or their lawyers
with respect to their own case.
Ind. Admin. R. 9(B)(2)(d).
Emphasis added;
irrelevant subsections omitted for clarity.
“Personal information relating to a juror
or prospective juror not disclosed in open
court is confidential, other than for the
use of the parties and counsel. The court
shall maintain that confidentiality to an
extent consistent with the constitutional
and statutory rights of the parties.”
Ind. Jury R. 10.

3

STATEMENT OF THE CASE
Over the years, courts have repeatedly upheld a
First Amendment right of public access to court
information, including the personal information of
jurors.
The Washington Post sought juror
questionnaires in the murder trial of Ingmar
Guandique, accused of murdering Chandra Levy in
2001. The murder received extensive media coverage
because Levy was having an affair with a
Congressman. The jury was promised that their
answers to the questionnaire would be confidential,
but ultimately, the court of appeals held that the
questionnaires had to be disclosed to the publi8c
except for any questions that the trial judge believed
to involved “deeply personal matters.” In Re Access to
Juror Questionnaires: The Washington Post, (D.C.
Court of Appeals, 2012).
A court may deny access to all identifying
information about jurors when there is a serious
threat to the jurors’ welfare. In the 1977 trial of Leroy
Barnes, who was charged with violating multiple
federal narcotics and firearms laws, a federal district
court withheld jurors’ names and addresses after the
judge determined that the case presented an unusual
risk to the jurors. See U.S. v. Barnes, 604 F.2d 121
(1979). Howell was a threat to no one, and there was
no victim involved in his case.

4

The U.S. Supreme Court has recognized that the
First Amendment protects the public’s right to attend
criminal proceedings.
Globe Newspaper Co. v.
Superior Court, 457 U.S. 596 (1982); Richmond
Newspapers, Inc. v. Virginia, 448 U.S. 55 (1980). The
Court has further recognized that the public and the
press have a right to attend not only the trial itself,
but also those pretrial proceedings that have been
traditionally open to the public and whose function
would be enhanced by allowing public scrutiny.
Press-Enterprise Co. v. Superior Court, 478 U.S. 1
(1986) [hereinafter Press-Enterprise II\ (holding that
a First Amendment right of access applies to voir dire
proceedings). While Howell’s case involved an alleged
criminal offense, the U.S. Supreme Court has not yet
directly addressed whether this constitutional right of
access to judicial proceedings applies to civil
proceedings or to court documents, numerous federal
and state courts have extended the First Amendment
right of access to civil proceedings and to court records
filed in both criminal and civil cases.
The following cases recognize a First Amendment
right of access to civil proceedings: United States v.
A.D., F.2d 1353 (3d Cir. 1994); Westmoreland v. CBS.,
Inc., 752 F.2d 16 (2d Cir. 1984); Publicker Industries,
Inc. v. Cohen, 733 F.2d 1059 (3d Cir. 1984); In re
Continental Illinois Sec. Litig., 732 F.2d 1310 (7th Cir.
1984); Brown & Williamson Tobacco Corp. v. FTC,
710 F.2d 1165 (6th Cir. 1983). Is it not rational that,

5

if the public has a right of access to civil cases, surely
a party would have a right of access o information
involving his own case, whether that case is civil or
criminal?
A First Amendment right of access to information
exists if the information in question passes the twin
tests of “experience and logic.” First, is there a long
history of access to the information at issue? Second,
does public dissemination of the information play a
significant role in the functioning and enhancement
of the judicial process at issue? Information about the
individuals who literally decide the fate of both civil
litigants and criminal defendants, including
information about where the jurors reside, work, or
both, satisfies both tests. Press-Enterprise Co. v.
Superior Court of California, 464 U.S. 501 (1984), and
Press-Enterprise Co. v. Superior Court of California,
474 U.S. 1 (1986).
The roots of open trials reach back to the days
before the Norman Conquest when cases in England
were brought before the “moots,” a town meeting kind
of body such as the local courts of the hundred of the
county court. Attendance was virtually compulsory
on the part of the freeman of the community, who
represented the “patria,” or the “country,” in
rendering judgment. The public aspect thus was
“almost a necessary incident” of jury trials, since the
presence of a jury...already ensured the presence of a

6

large part of the public. Press-Enterprise I, 464 U.S.
at 505.
When the jury system grew up with juries of the
vicinage...everybody knew everybody on the jury and
we may take judicial notice that this is yet so in many
rural communities throughout the country. So,
everyone can see and how everyone who is stricken
from the venire list or otherwise does not serve. Even
in the case before us, the entire voir dire proceeding
was in open court. But the anonymity of life in he
cities has so changed the complexion of this country
that even the press, with its vase and imaginative
methods of obtaining information, apparently does
not know and cannot easily obtain the names of the
jurors and of the venire men and women who did not
serve in this case. We think it no more than an
application of what has always been the law to
require a district court, upon the seating of the jury
and alternates, if any to release the names and
addresses of those jurors....In re Baltimore Sun Co.,
841 F.2d 74, 75 (4th Cir. 1988). Howell’s trial took
place in a city - Indianapolis - far from where he
resided at the time of his case, thus, it was not likely
that members of the jury would be known to him.
This also tends to question whether or not the jury in
his case was
a “jury
of his
peers.”
So common was the practice of disclosing the
identity of jurors that in the conspiracy trial of Aaron

7

Burr, the names of the twelve chosen jurors were
printed in the reported decision. See Gannett Co. v.
State, 571 A.2d 735, 757 (Del. 1990) (Walsh, J.,
dissenting) (citing United States v. Burr, 25 F. Cas.
55, 87, No. 14,693 (C.C.D. Va. 1807); see also David
Weinstein, Protecting a Juror’s Right to Privacy:
Constitutional Constraints and Policy Options, 70
Temp. L. Rev. 1, 30 (1997). The juror’s names were
also made public in the highly publicized trials of
William Penn in 1670 and of John Peter Zenger in
1735. Gannett Co. v. State, 751 A.2d 735, 756 n.3 (Del
1990) (Walsh, J., dissenting). Thus, there is a longestablished tradition of allowing access to juror’s
identities in criminal trials in the United States.
Again, parties should be granted greater access than
the public when the information pertains to the
parties’ own cases.
In recognizing the public’s constitutional right to
attend criminal proceedings, the Supreme Court
identified the following purposes served by an open
judicial system: ensuring that proceedings are
conducted fairly; discouraging penury, misconduct of
participants, and biased decisions; providing an
outlet for community hostility and emotions; ensuring
public confidence in a trial’s results through the
appearance of fairness; and inspiring confidence in
judicial proceedings through education regarding the
methods of government and judicial remedies.
Richmond Newspapers, 448 U.S. at 569.

8

Many of the purposes listed above which open
justice serves are equally served by access to the
identities of the jurors. Knowledge of juror identities
allows the public to verify the impartiality of key
participants in the administration of justice, and
thereby ensures fairness, the appearance of fairness,
and public confidence in that system. In re Globe
Newspaper Co., 920 F.2d 88 (1st Cir. 1990) at 94.
It is possible, for example, that suspicions might
arise in a particular trail (or in a series of trials) that
jurors were selected from only a narrow social group,
or from persons with certain political affiliations, or
from persons associated with organized crime groups.
It would be more difficult to inquire into such matters,
and those suspicions would seem in any event more
real to the public, if names and addresses were kept
secret.
Furthermore, information about jurors,
obtained from the jurors themselves or otherwise,
serves to educate the public regarding the judicial
system and can be important to public debate about
its strengths, flaws, and means to improve it....Juror
bias or confusion might be uncovered, and jurors’
understanding and response to judicial proceedings
could be investigated. Pub he knowledge of juror
identities
could
also
deter
intentional
misrepresentation at voir dire. Id.
It is important for the public to receive information
about the operation of the administration of justice,

9

including information about the actual people who do
render justice in the truest sense of the word. Access
to such information not only serves the cause of
justice generally by providing an independent, non­
governmental verification of the utter impartiality of
the processes involved in selecting jurors and
shielding them from improper influences, it also
serves to enhance the operation of the jury system
itself by educating the public as to their own duties
and obligations should they be called for jury service.
United States v. Doherty, 675 F.Supp. 719, 723 (D.
Mass. 1987), affd in part, rev’d in part on other
grounds, 867 F.2d 47 (1st Cir. 1989).
Several examples from the recent past confirm
these views of the essential role that access to
information about jurors plays in promoting the
public’s confidence in the fairness of the judicial
process. Access to juror information helped reveal
that an African-American juror in Washington, D.C.,
refused to convict an African-American criminal
defendant, regardless of the evidence. Similarly, it
was revealed that a law student juror in a civil libel
case had erroneously instructed his fellow jurors on
the mean of the “actual malice” standard. See Steven
Brill, Inside the Jury Room at The Washington Post
Libel Trial, Am. Law., Nov. 1982, at 1. Furthermore,
information obtained as a result of public access to
juror identifies has even uncovered juror misconduct.
United States v. Posner, 744 F. Supp. 855, 886 n.2

10

(S.D. Fla. 1986) (jurors’ exposure to prejudicial
outside influences revealed in newspaper article
featuring interview with juror), affd without opinion,
828 F.2d 773 (11th Cir. 1987).
Most recently, news reports revealed that jurors in
a civil case switched their votes late Friday afternoon
from plaintiff to defendant solely to avoid having to
resume deliberations after the weekend.
Jeff
Blumenthal, Did Civil Duty Go Awry?, Legal
Intelligencer. Sept. 15, 1999. Not only the names of
the jurors, but also the places they live and work may
reveal useful background information about the
citizens who rendered the verdict in a particular case.
Courts typically stress the nation’s long tradition
of making the names and addresses of jurors open to
the public. In United States v. Wecht, the news media
challenged a trial court’s decision to empanel an
anonymous jury in the criminal case against Wecht, a
coroner charged with using his public office for
private financial gain, the United States Court of
Appeals for the Third Circuit noted that it was rare
for juror names to be withheld before the upsurge in
the use of anonymous juries in the 1970s. U.S. v.
Wecht, 537 F.3d 222 (3d Cir. 2008).
The Supreme Court of Ohio in Beacon Journal also
interpreted the Court’s holding in Press-Enterprise I
as requiring the First Amendment right of access to

11

attach to juror names. According to that court, juror
identity is a component of voir dire, which the court
in Press-Enterprise 1 held a qualified First
Amendment right of access attaches to. Beacon
Journal, 98 Ohio St.3d 146, 2002-0hio-7117, at 157.
As shown in the preceding paragraphs, there is a
firmly established tradition of providing public access
to juror identities, including their addresses, and
access to that information enhances the functioning
of our judicial system. Therefore, under the PressEnterprise test of “experience and logic,” the names
and addresses of jurors are subject to the qualified
right of access guaranteed by the First Amendment. In
holding that the entire jury selection process in
criminal trials is subject to the First Amendment
right of access by the public, the Supreme Court has
strongly suggested that any limitation on information
ordinarily disclosed at such proceedings must satisfy
the “strict scrutiny” test. Accordingly, before denying
the public access to information about jurors in
judicial proceedings, courts must conduct a case-by­
case analysis and determine that withholding the
information is necessary to further a compelling
government interest, is narrowly tailored to serve
that interest, and that no less restrictive means are
available to adequately protect that interest.

12

REASONS FOR GRANTING THE PETITION
Access to court information should be made
available to parties to an action when provided for by
statute. This matter is of great pubhc interest
because the State of Indiana is preventing parties
from accessing information about their cases even
when statutes and administrative rules provide for
that access.
Howell has a statutory and
constitutional right to the information requested.

CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,

J(

bwell, Petitioner, pro se
October 2, 2020

13

